<html>
<title> - [H.A.S.C. No. 113-67] REPORT FROM SIGAR: CHALLENGES TO SECURING AFGHAN WOMEN'S GAINS IN A POST-2014 ENVIRONMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-67]

   REPORT FROM SIGAR: CHALLENGES TO SECURING AFGHAN WOMEN'S GAINS IN 
                        A POST-2014 ENVIRONMENT

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 29, 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

  85-331                       WASHINGTON : 2014 
-----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Printing 
 Office, http://bookstore.gpo.gov For more information, contact the 
GPO Contact Center, U.S. Government Printing Office. Phone: 202-512-1800, 
 or 866-512-1800 (toll free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>







              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     MARTHA ROBY, Alabama, Chairman

K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
MO BROOKS, Alabama                   ROBERT E. ANDREWS, New Jersey
WALTER B. JONES, North Carolina      JACKIE SPEIER, California
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
JIM BRIDENSTINE, Oklahoma
             Christopher Bright, Professional Staff Member
                          Paul Lewis, Counsel
                          Arthur Milikh, Clerk






















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, October 29, 2013, Report from SIGAR: Challenges to 
  Securing Afghan Women's Gains in a Post-2014 Environment.......     1

Appendix:

Tuesday, October 29, 2013........................................    27
                              ----------                              

                       TUESDAY, OCTOBER 29, 2013
  REPORT FROM SIGAR: CHALLENGES TO SECURING AFGHAN WOMEN'S GAINS IN A 
                         POST-2014 ENVIRONMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Roby, Hon. Martha, a Representative from Alabama, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Barsa, Michelle, Senior Manager for Policy, Inclusive Security 
  Action.........................................................     5
Katzman, Dr. Kenneth, Specialist in Middle Eastern Affairs, 
  Congressional Research Service.................................     7
Sopko, John F., Special Inspector General for Afghanistan 
  Reconstruction, Office of the Special Inspector General for 
  Afghanistan Reconstruction.....................................     3

                                APPENDIX

Prepared Statements:

    Barsa, Michelle..............................................    50
    Katzman, Dr. Kenneth.........................................    60
    Roby, Hon. Martha............................................    31
    Sopko, John F................................................    35
    Tsongas, Hon. Niki...........................................    33

Documents Submitted for the Record:

    SIGAR ``Afghanistan Oversight Access'' maps..................    71

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Tsongas..................................................    77

  REPORT FROM SIGAR: CHALLENGES TO SECURING AFGHAN WOMEN'S GAINS IN A 
                         POST-2014 ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                         Washington, DC, Tuesday, October 29, 2013.
    The subcommittee met, pursuant to call, at 1:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Martha Roby 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTHA ROBY, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mrs. Roby. Welcome to this afternoon's oversight hearing. 
Before we begin, I would like to take a moment to note the 
passing of our former Chairman, Representative Ike Skelton. 
Although I have never served with Mr. Skelton, I know he 
represented the best of this committee and never forgot the 
importance of putting the needs of our men and women in uniform 
first. Our thoughts are with his family and his friends and his 
colleagues.
    Today we will convene a hearing with the Special Inspector 
General for Afghanistan Reconstruction and two outside experts. 
We will receive testimony on the challenges of ensuring the 
important security, educational, and economic gains that Afghan 
women have made in the recent years are not lost as the United 
States transitions its force posture in 2014.
    This subcommittee convened a related hearing in April. At 
that time we received testimony emphasizing that it is 
essential that Afghanistan develop a lasting and functioning 
government with capable police and military forces. A safe and 
secure Afghanistan is a necessary predicate to ensuring that 
all are protected, men and women.
    Members of this subcommittee are deeply committed to this 
topic. In May, I traveled to Afghanistan for the third time. It 
was my second CODEL [congressional delegation] that I led, and 
I was joined by Ms. Tsongas, Ms. Duckworth, and several others. 
And our agenda focused on not only visiting with our men and 
women in uniform to thank them for their service in theater, 
but also to focus on women's issues.
    We saw firsthand women and girls who were attending schools 
and universities, holding elected office, joining the military 
and police forces, and pursuing new opportunities previously 
denied to them. These are important gains that must not 
disappear once the U.S. reduces forces in Afghanistan, and we 
must closely monitor conditions during this critical 
transition.
    The safety and security of Afghan women remains an 
important barometer. You have heard me say it many times. It is 
a litmus test for the success of our efforts. Before 
proceeding, let me note that members of other subcommittees may 
intend to join us, and therefore I ask unanimous consent that 
non-subcommittee members be allowed to participate in today's 
hearing after all Oversight and Investigations Subcommittee 
members have had an opportunity to ask questions. Is there 
objection? Without objection, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes.
    Now I turn to my distinguished Ranking Member for her 
introductory remarks.
    [The prepared statement of Mrs. Roby can be found in the 
Appendix on page 31.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Tsongas. Thank you, Chairwoman Roby. I, too, also would 
like to acknowledge the passing of Chairman Skelton. I did have 
the good fortune to serve under him for a number of years, and 
I found him to be a remarkably decent and honorable man, always 
of great integrity. He served our country, his district, and 
this committee, I think, with great distinction and we are 
grateful for his service to our country, but we miss--we are 
sorry he passed away. I would also like to thank you, 
Chairwoman Roby, for working to arrange this hearing today. I 
believe, as do you, that this is a vital opportunity to build 
on the important and bipartisan discussions on those issues 
which our subcommittee--those issues which our subcommittee had 
a chance to visit in an April hearing on Afghan women in the 
ANSF [Afghan National Security Forces], and in our July closed 
briefing with Mr. Sopko.
    As you noted, our Mother's Day CODELs to Afghanistan--as a 
result of them, we have witnessed firsthand the significant 
gains that Afghan women have made over the past decade in areas 
such as health, governance, and education. Both of us saw what 
was at stake as our forces continue to draw down, and so I 
would also like to thank all of our witnesses for being here 
today, each with your own valuable perspective. I would also 
particularly like to thank you, Mr. Sopko, for the long-term 
commitment you have made to prioritize oversight over Afghan's 
women's issues. Your office faces an enormous array of 
challenges in Afghanistan, and is responsible, as we know, for 
monitoring every aspect of our reconstruction efforts under 
logistically frustrating circumstances.
    I was very encouraged by your recently announced 
comprehensive audit of our programs for Afghan women and girls 
due out early next year. And from the written testimonies of 
all our guests today, it is apparent that each of you is 
fundamentally in agreement that while there have been precious 
gains made for Afghan women and girls over the past decade, 
these gains are already threatened and will face significant 
challenges after the bulk of our armed forces have withdrawn at 
the end of 2014.
    Your testimony, Mr. Sopko, also notes the significant 
obstacles SIGAR [Special Inspector General for Afghanistan 
Reconstruction] and other Federal agencies will face in 
performing oversight on the ground, due to security challenges. 
As much as 80 percent of the country may simply be 
inaccessible. After 2014, not only may the gains which have 
been made for women be eroded in these areas, it is also likely 
that we may not even know the full extent of the setbacks.
    I also look forward to hearing from each of your thoughts 
on how we can improve recruiting and retention of Afghan women 
in the ANSF and Afghan national police. The issue is 
increasingly timely due to a number of second-order effects of 
low recruitment, such as the approaching presidential elections 
in April, and the inability of Afghan women wishing to cast 
ballots to do so, unless there are adequate women in uniform 
available to search them. The ANSF is not meeting its 
recruiting objectives, and the obstacles are varied and 
significant.
    So thank you all again for being here this afternoon, and I 
look forward to your testimony.
    [The prepared statement of Ms. Tsongas can be found in the 
Appendix on page 33.]
    Mrs. Roby. Thank you, Ms. Tsongas. Our panel today includes 
Mr. John Sopko, the Special Inspector General for Afghanistan 
Reconstruction; Ms. Michelle Barsa, senior manager for policy 
at Inclusive Security Action; and Dr. Kenneth Katzman, a 
specialist in Middle Eastern Affairs at the Congressional 
Research Service. Mr. Sopko, please begin.

   STATEMENT OF JOHN F. SOPKO, SPECIAL INSPECTOR GENERAL FOR 
  AFGHANISTAN RECONSTRUCTION, OFFICE OF THE SPECIAL INSPECTOR 
             GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you, very much. Chairman Roby, Ranking 
Member Tsongas, members of the committee, it is a pleasure to 
be here today to discuss SIGAR's oversight work and the 
challenges facing Afghan women and girls. Since 2002, Congress 
has appropriated nearly $100 billion to rebuild Afghanistan, 
making it the most expensive effort to rebuild a single nation 
in U.S. history.
    Improving the lives of Afghan women and girls has been an 
integral component of that effort. From 2003 through 2010, 
Congress dedicated $630 million to address the needs of Afghan 
women and girls, and it appears this investment may have paid 
off. Over the last decade, Afghanistan has made significant 
progress in advancing the rights of Afghan women and girls, 
providing them with critical services and protecting them from 
violence.
    However, despite these initial gains, Afghan women still 
remain largely marginalized. The United Nations Gender 
Inequality Index puts Afghanistan near the bottom, ranking 175 
of 186. The United Nations also reports that 50 percent of all 
marriages that take place in Afghanistan are still child 
marriages.
    And while the goal is for the women to make up 10 percent 
of the Afghan National Army and Air Force, as you know, they 
currently make up .3 percent of those forces. And, 
unfortunately, the results for recruiting women into the Afghan 
National Police are equally abysmal, less than 1 percent.
    Due to interest from Congress, including members of this 
committee, SIGAR initiated the new audit referenced by Ranking 
Member Tsongas. We will try to identify the challenges and 
evaluate the U.S. efforts to confront them. SIGAR is also 
concerned about the impact of the coalition troop drawdown on 
our government's ability to oversee Afghan National Security 
Forces which, for the most part, will be solely responsible for 
preserving these hard-fought gains for Afghan women and girls 
after 2014.
    Now although it is difficult to predict the future U.S. 
presence in Afghanistan, it is likely that less than a quarter 
of the country, mostly the areas around the major cities, will 
be accessible to U.S. civilian personnel by the end of the 
transition, and a significant decrease from 2009.
    The maps which we are showing up on the TV illustrate that 
fact. They also clearly show the trend of a limited future 
oversight access after 2014. In the coming year, SIGAR will 
continue to focus attention on how the military drawdown, the 
decline in donor resources, and the transition to Afghan 
governance and responsibility for the ANSF will affect 
reconstruction and the rights of women and girls.
    [The maps referred to can be found in the Appendix 
beginning on page 71.]
    Mr. Sopko. Now in addition to our work on Afghan women and 
girls, SIGAR has a large body of work focused on the Afghan 
National Security Forces which is relevant to today's hearing. 
This quarter, SIGAR issued a number of new audits and 
inspections related to the ANSF. These reports underscore some 
key problems that SIGAR has identified before, including 
providing direct assistance to the Afghan government without 
fully assessing and or monitoring and or fixing financial 
management weaknesses; the lack of an ANSF basing plan that 
takes into account future ANSF numbers; ignoring the Afghan's 
inability to sustain programs and infrastructure; the absence 
of strong accountability measures over supplies provided to the 
ANSF; and the failure to consistently exercise strong contract 
oversight and management.
    In conclusion, the reconstruction effort is undergoing a 
massive transition. This includes a growing reliance on direct 
or on-budget assistance to the Afghan ministries. Now I just 
returned from Brussels where I met with officials of the 
European Union [EU] and NATO [North Atlantic Treaty 
Organization]. These meetings confirmed our concerns. As you 
may know, as it was recently reported, that NATO was planning 
to focus less on training of Afghan troops and more on 
overseeing how the funding will be spent, due to fears of 
corruption and misuse of NATO funds. I also learned that the 
European Union does not give direct bilateral assistance to 
specific Afghan ministries because of the risk of threat and 
abuse.
    This comports with concerns expressed to me by DFID 
[Department for International Development], the EU--I mean, 
excuse me, the U.K. aid agency early in the year.
    In addition, we were told in Brussels that the EU has 
serious misgivings that the Law and Order Trust Fund [for 
Afghanistan] or LOTFA, has inadequate controls to ensure 
payments are not made to ghost Afghan employees.
    Therefore, I conclude by saying the United States and other 
donors must establish mechanisms to protect direct assistance 
from corruption. And the U.S. and its allies must have the 
courage to condition assistance on the Afghans meeting their 
commitments, whether on oversight or protecting the rights of 
women and girls.
    Thank you very much. And I look forward to your 
questioning.
    [The prepared statement of Mr. Sopko can be found in the 
Appendix on page 35.]
    Mrs. Roby. Thank you.
    Ms. Barsa.

    STATEMENT OF MICHELLE BARSA, SENIOR MANAGER FOR POLICY, 
                   INCLUSIVE SECURITY ACTION

    Ms. Barsa. Chairman Roby, Ranking Member Tsongas, members 
of the subcommittee, allow me to thank you for your consistent 
support for Afghan women and for inviting me here to testify 
today on the issue of recruitment and retention of women in the 
Afghan National Security Forces.
    I work with an organization called Inclusive Security, that 
is dedicated to increasing the inclusion of women in peace and 
security processes.
    We have been in Afghanistan for over a decade, and I travel 
to the country frequently. Informing this testimony are 
consultations I have led with men and women in the Afghan 
National Security Forces, officials of the Afghan Ministries of 
Interior and Defense, and representatives of ISAF 
[International Security Assistance Force], among others.
    Let me start by acknowledging that the gains Afghan women 
have made since 2001 are many. But, as U.S. and coalition 
forces draw down, progress is beginning to erode.
    As we consider how to maintain progress for women, we must 
evaluate women's direct participation in the Afghan 
institutions mandated to protect those gains.
    In total, the U.S. has appropriated about $52.8 billion for 
the Afghan security forces funds for supporting the Afghan 
national forces. Prior to 2013, there had never been 
authorizing or appropriating language in law that specifically 
addressed recruitment and retention of women in those forces.
    The presence or absence of women in the ANSF has 
implications in the areas the U.S. has deemed top priorities, 
including, but not limited to, democracy promotion, countering 
terrorism, and providing security to the Afghan people.
    And I will elaborate briefly on those three points.
    On the issue of democracy promotion, female security 
officers are required to staff the women-only voter 
registration and polling stations. In the absence of sufficient 
numbers of female security personnel, these voter registration 
and polling stations will remain closed.
    In other words, Afghan women will not be allowed to vote.
    On countering terrorism, last year in Afghanistan, you can 
trace at least 13 recorded accounts of male insurgents dressed 
as women infiltrating restricted areas from which they launched 
attacks. There were no female body searchers to stop them.
    Due to cultural norms, male security officers cannot 
conduct body searches of women, security checks of homes that 
have a female present, nor effectively gather information from 
or conduct interrogations of women.
    On the issue of providing security to the Afghan people, of 
course, understanding people to refer equally to men, women, 
boys and girls, sexual and gender-based violence is endemic in 
Afghanistan, with as many as 87 percent of women experiencing 
some form of domestic abuse or forced marriage in their 
lifetime.
    In cases where women report these crimes to male police, 
they are often blamed for the abuse or, worse, abused by the 
officer.
    With female police officers, these crimes are more likely 
to be properly registered, investigated and prosecuted.
    Of the myriad institutional and social impediments to 
recruitment and retention in the Afghan security forces, I will 
highlight six of priority concern to women.
    First, the recruitment process. Women have reported 
recruitment officers turning them away, heckling them as bad 
women and asking for sexual favors in exchange for enrollment.
    Second, assignment and rank promotion. Women have often 
reported being assigned to positions below their ranks, 
including soldiers relegated to carrying out menial tasks, such 
as cleaning the office or serving tea.
    Equipment and transportation is an issue. Women have 
reported not being assigned weapons, never receiving uniforms 
or being issued uniforms made for men, and having rare access 
to vehicles, which limits their ability to investigate crimes, 
respond to ongoing incidents, and conduct outreach to 
communities.
    Three is the issue of sexual harassment. Complaints of 
sexual harassment, abuse and coercion are widespread throughout 
the forces. The existing complaints response mechanism has 
proven ineffective in addressing abuse and holding perpetrators 
accountable.
    Then, there is the public perceptions issue. While surveys 
do actually show that communities are increasingly supportive 
of police women, families are still reluctant to encourage or 
allow female members to serve. This is partially attributable 
to conservative cultural norms, but also to the rampant sexual 
harassment and assault within the forces and lack of female-
only facilities, which lead to rumors of prostitution and un-
Islamic behavior.
    Highlighting the point of inadequate facilities, as one 
example, 29 of the 30 police training centers do not have 
dormitories for women. Without appropriate facilities, women 
trainees need to travel home each night, which effectively 
limits enrollment to women in the immediate vicinity of the 
training center.
    The Afghan government has set ambitious targets for 
recruiting and retaining women in the forces, but we are not on 
track to meet them.
    This is, in part, attributable to the environment, but also 
to an under-resourced effort. We are grateful Congress has 
taken steps to address this. The 2013 NDAA [National Defense 
Authorization Act] emphasizes the importance of recruitment and 
retention of women in the forces. The House version of the 2014 
NDAA as well as the 2014 defense approps [appropriations] bill 
specifically authorize and appropriate, respectively, $47.3 
million for this purpose.
    Efforts to support women in the Afghan forces will be 
sidelined if money is not explicitly reserved, which, to 
clarify, doesn't imply adding another line of effort to the 
train and assist mission.
    To effectively integrate women into the forces, 
interventions designed to recruit and retain women must be 
integrated into current U.S. efforts under the existing funding 
categories.
    I want to stress the point that right now the focus needs 
to be on cultivating a safe environment for women within the 
forces, which can only be done by taking on the challenges 
outlined earlier.
    Additionally, financial resources must be complemented by 
human resources. Right now, we have gender advisers in place at 
ISAF HQ [International Security Assistance Force Headquarters], 
ISAF Joint Command and the NATO training mission. A number of 
these positions will be cut by the start of 2014, which will 
curtail our ability to meaningfully make progress toward the 
goals set.
    Without question, Afghan women have experienced 
improvements in access to health care, education, economic 
opportunity and political power since the fall of the Taliban 
in 2001.
    But it is important to remember, they weren't handed 
progress; they fought for it. They established social services 
organizations, ran for political office, advocated to official 
actors, and did the impossible work of holding communities 
together in the midst of war.
    As we question how to maintain gains post-2014, our answers 
must include enabling women themselves to protect what they 
have fought so hard to achieve. We must acknowledge Afghan 
women's interest in serving their communities and their 
country.
    And, for those who want to serve in the armed forces, it is 
our obligation to ensure they can.
    Thank you, and I welcome your questions.
    [The prepared statement of Ms. Barsa can be found in the 
Appendix on page 50.]
    Mrs. Roby. Thank you very much.
    Mr. Katzman.

STATEMENT OF DR. KENNETH KATZMAN, SPECIALIST IN MIDDLE EASTERN 
            AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Dr. Katzman. Thank you very much, Chairman Roby and Ranking 
Member Tsongas for----
    Mrs. Roby. Dr. Katzman, sorry.
    Dr. Katzman. Thank you very much for asking the 
Congressional Research Service for my testimony. I will 
summarize it and ask the full text be included in the record.
    My work on Afghanistan for the Congressional Research 
Service focuses extensively on Afghan politics, culture and the 
human rights situation, having studied Afghanistan since the 
Soviet era.
    My testimony lays out some of the gains and some of the 
setbacks, actually, that women have made in Afghanistan since 
2001.
    There have been dramatic gains, as outlined, but also, 
since the Taliban insurgency gained or regained some strength, 
toward 2006, 2007, before President Obama's surge in 
Afghanistan, there have been setbacks.
    As the Taliban make gains, they tend to enforce their way 
of thinking in the areas under their control.
    What I want to do in my summary is just lay out four 
scenarios for post-2014 and how that would affect women's 
rights in Afghanistan.
    The first scenario is relative stability. In other words, 
postulating that it appears that, roughly, the United States 
might keep about 10,000 troops in Afghanistan after 2014, with 
about another 5,000 partner country forces.
    Most of my peers in this business, we agree that that 
probably is reasonably enough to preserve a status quo. The 
government in Kabul will not collapse under that scenario and 
will continue to even accomplish some economic development.
    Most of these forces will be training and mentoring the 
350,000 member ANSF.
    So if the security situation--if, indeed, the security 
gains hold, roughly, then women's rights will relatively remain 
as they are--steps forward, steps backward; gains, some 
setbacks, but not a dramatic decline.
    The second scenario is what I call a worst-case scenario, 
which would be a collapse of the government in Kabul. If, for 
example, there is no agreement to keep U.S. troops or if the 
international troops prove insufficient, and the Afghan 
security forces collapse under Taliban pressure, and the 
Taliban were, perhaps, to recapture control of Afghanistan or 
much of Afghanistan, that clearly I think would represent a 
worst-case scenario.
    We could expect that even though some Taliban leaders, 
including Mullah Omar, have suggested that they may be more 
open to a different type of regime, should they come back to 
power, not necessarily expelling girls from school, not 
necessarily preventing women working outside the home. I think 
we have to assume that if the Taliban were to come back to 
power, they would enforce some of those restrictions, many of 
those restrictions that they practiced when they were in power 
from 1996 to 2001, which included using the soccer stadium as 
an arena to stone women to death and conduct public executions. 
And women in the streets who were not completely covered were 
routinely hit. And it was--well, we don't need to go--it was 
awful. You know, there is no other way to describe it.
    The most likely scenario I see is this third scenario, 
where I say the influence of what I call faction leaders is 
going to increase after 2014. The U.S. and partners will have 
not that many forces in Afghanistan. These faction leaders 
probably will reassert themselves. They already are starting to 
call some of their former militia men back into service.
    Most of them are Islamic--very, very conservative 
Islamists. Ismail Khan, for example, who used to run western 
Afghanistan; there was a faction leader in Helmand, Sher 
Mohammad Akhunzadeh, very, very repressive, conservative on 
women.
    Some of them, such as Mr. Dostum [Abdul Rashid Dostum] in 
the north, the Uzbek area, he is actually somewhat more 
progressive. He is a former communist.
    But the bottom line is, the faction leaders would have 
increased influence in post-2014, and they tend to enforce 
arbitrary rule. Rule of law will basically dissolve. They rule 
by the barrel of the gun, the, what I call in the testimony, 
the mujahideen culture, the culture of we fought the Soviets, 
we fought the Taliban, therefore, we are in charge, and you do 
what we say.
    Again, not a good scenario for women; but, you know, not as 
bad as the Taliban coming back.
    A middle-ground scenario would be, as I say in the last 
one, a settlement with the Taliban, if there is a political 
settlement. Karzai or his successor has a settlement with the 
Taliban. The Taliban come back into the government peacefully, 
perhaps as ministers, perhaps controlling provinces or having 
seats in Parliament. Again, these Talibs who come back would be 
looking to impose Islamic restrictions, and that would not be a 
good scenario for women. However, they would not be controlling 
the government, they would be in partnership with existing 
progressive forces, and so it is sort of a middle-ground 
scenario.
    So in conclusion, under almost any post-2014 Afghanistan 
scenario, it is likely that some of the gains we have seen 
since 2001 will likely be eroded. Some of these gains threaten 
more than other scenarios, but likely it will not be a positive 
after 2014.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Katzman can be found in the 
Appendix on page 60.]
    Mrs. Roby. Thank you very much, and again thank you all for 
your input and insight into these issues that are so very 
important to this committee. I am going to start with you, Mr. 
Sopko. This weekend, there was a Washington Post article that I 
am sure most everybody here has read, where your organization 
discussed the difficulty that your auditors are going to have 
monitoring the U.S.-funded construction projects as the U.S. 
troop levels reduce over the next 12 months and after 2014.
    As you conduct your ongoing work, looking at women's 
programs specifically over the next year, what sort of approach 
are you going to take to gather information and provide us 
better visibility as it relates to women's issues there?
    Mr. Sopko. Chairman Roby, that is a good question, and I 
will be honest with you, we don't have as good an answer I 
would like to give you. One of the reasons we sent that letter 
to the Secretary of State, Secretary of Defense, and AID 
[Agency for International Development] administrator was to try 
to glean best practices. We in particular are trying to 
understand how you can monitor these far-reaching programs and 
if you look at the bubble map, we have actually put some 
specific construction projects on, but that doesn't include, 
and if we did include all of the places where the ANP [Afghan 
National Police] is working, or the Afghan military are 
working, that whole map would be red, and remember, we are 
paying money for their salaries, we are trying to ensure there 
is recruitment of women in all of those areas. And the 
difficulty is how do we monitor when U.S. citizens, U.S. 
citizens working for the government cannot get there?
    Mrs. Roby. Well, right. And so I wanted to bring up at this 
point and ask you, when we were, our last trip, on Mother's 
Day, we had opportunity, and these ladies here as well were all 
with us when we sat down with the Minister of Defense and had a 
frank conversation with him about the monies that are supposed 
to be used for that very purpose. And we had a--I mean, it was 
a very frank discussion about whether or not he was committed 
to ensuring that those monies would go to the right place.
    He stated verbally, that he was. So, you know, we do have 
this language that Mrs. Davis proposed that is in the current--
the 2014 NDAA that makes sure that that money is used, but I am 
curious, in your role, have you had an opportunity to interact 
with the Minister of Defense and had these conversations to 
make sure that that money is going where it is supposed to go?
    Mr. Sopko. Madam Chairman, I have not had any conversation 
with the Minister of Defense, and in particular, I have avoided 
conversations at that level because of the political overtones, 
especially since many of the ministers are now running for 
president, so I don't want to be shown showing favorites, or 
not showing favorites.
    But we have reached out to officials in the ministries at a 
lower level to try to make a determination. And again, I think 
the thing you have to keep in mind is, and I use President 
Reagan's oft-used statement, ``trust but verify,'' and I know 
my colleague, Dr. Katzman, who has looked at this since the 
Soviet Union, will remember that in the Soviet Union, they had 
a better Constitution than we did, so on paper it looked great 
in the Soviet Union, and these promises are one thing. I think 
what we need to do is we have to go out and verify, and that is 
why----
    Mrs. Roby. Sure.
    Mr. Sopko [continuing]. We are concerned about our ability 
to go out and see those sites and actually kick the tires.
    Mrs. Roby. Well that is the--these maps are very, very 
telling, so I can appreciate that. And so when you talk about 
reaching these rural areas and, can you just expand on, you 
know, I mean, I know what I have read in the news articles, but 
expand on what your plan is to reach these rural areas as we 
move to 2014 and beyond.
    Mr. Sopko. Like everything in Afghanistan, there is no 
silver bullet, and what we are going to have to do is use 
multiple approaches to this. You can use geospatial, which are 
satellite photos that you are well aware of, but they have 
limitations. You can use third-party monitors, and we have 
actually had experience auditing third-party monitors. And some 
have been very good. Others have been very bad, and actually we 
did an audit of a USAID [United States Agency for International 
Development] program and the third-party monitors couldn't get 
out and do the monitoring.
    Mrs. Roby. Because they would be--the attention would be 
drawn to them.
    Mr. Sopko. Absolutely.
    Mrs. Roby. I mean, I think the Washington Post article 
alluded to this, saying if there is some, you know, Afghan 
individual out with a notepad and a camera, then clearly they 
are tied to Western money and they would be threatened 
themselves.
    Mr. Sopko. Absolutely. How long is he or she going to last 
out in the countryside? And again, 70 percent of the population 
is in rural areas.
    Mrs. Roby. Right.
    Mr. Sopko. Which means it is probably going to be outside 
those bubbles.
    Mrs. Roby. Right, and we--real quick, and then I will yield 
to Ms. Tsongas, but when we experienced that in our last trip, 
compared to 2, 3--our first trip 2 years ago, 2\1/2\ years ago, 
where we couldn't move around the country either, and you and I 
have talked about that. So it is very, very evident that these 
challenges exist. My time has expired. Ms. Tsongas.
    Ms. Tsongas. Thank you, and thank you all. I think as you 
can see, our focus and our concern is real, both as a result of 
all of your testimonies, and understanding how important it is 
to the long-term stability of the country, that these gains are 
not bargained away, and that women continue to have ways to 
meaningfully participate in their country.
    And hearing, in an earlier hearing, our April hearing, 
there was testimony that the ANSF is primarily responsible for 
recruiting women. And Mr. Sopko, you said in your written 
testimony that 12,000 women police officers who can conduct 
body searches on women will be necessary at polling stations so 
that women are, you know, are allowed to vote in the upcoming 
elections. But unfortunately, there are currently only about 
1,600 women police officers.
    And from your testimony, and Ms. Barsa said, this 
participation is a near-term problem and a long-term problem. 
In the near term is bulking up the police force so that women 
can fully participate. The long-term problem is that by 
participating, they have a stake in governance and the security 
situation in the country reflects their input.
    So the question I have is, what are the levers we can use, 
if the ANSF is primarily responsible, we are quickly drawing 
down, how do we incentivize the ANSF to take seriously the need 
to have women participating to a necessary extent one, so women 
can participate in the elections in the short-term, and two, 
for the long-term security of the country, so I will start with 
you, Ms. Barsa, and then Mr. Sopko, if you would answer.
    Ms. Barsa. Sure. It is not the easiest task, but there are 
a couple things I think you can do. I think one, and Congress 
has already taken this step, is to dedicate financial resources 
explicitly to recruitment and retention. And looking beyond 
just female-targeted recruitment campaigns, but really to the 
infrastructure and facility refurbishment that the reformist 
system policies and processes that needs to happen to create a 
safe environment for women in the forces.
    That money needs strong safeguards, so that it is not used 
for any other purpose, particularly if it is transferred to the 
Afghan ministries. And we also need to be creative in thinking 
about how we use this funding as potentially positive 
incentives, so that the Afghan ministries in theory could get a 
plus-up in their budget when they meet certain benchmarks 
related to recruitment and retention, or when we look to money 
that is dedicated for higher education, secondary or tertiary 
education for girls, and looking at working out a system like 
our U.S. program of ROTC [Reserve Officers' Training Corps] 
such that women exchange scholarships to attend these higher 
institutions in exchange for a service, either the police or 
army, right?
    I think another piece of it is human resources. I mentioned 
the issue of the advisors. We need these advisors embedded 
within the ministry. They really force and drive action as well 
as sitting close to the commanders of ISF HQ, IGC [Inter 
Governmental Council] and NATO training command, as well as 
trainers.
    So the training capacity doesn't exist internal of the ANA 
[Afghan National Army] and it is quite weak within the ANP, or 
the Afghan National Police, and so they are looking externally 
to international trainers, so they do trainings of trainers for 
the Afghans to build up that capacity. Diplomatic pressure is 
really important to bring it up in every key leader engagement, 
just as you all did in your Mother's Day CODEL. Those gestures 
carry a lot of weight within the Afghan ministry.
    I think as we look to professionalizing the force of reform 
and revision of the performance evaluation process, such that 
Afghan officers, particularly those in leadership positions, 
are evaluated not just on their tactical and operational 
performance, but on their demonstrated ability to uphold the 
values of the force. And for leaders, their unit's adherence to 
a code of conduct that includes zero tolerance for sexual abuse 
and harassment.
    And then finally, I think there is the support for ongoing 
efforts led by Afghan and international NGOs [non-governmental 
organizations]. There is a lot of really incredible work 
happening right now. Consortiums of Afghan women's NGOs that 
have set up a police mentoring project in the provinces, women 
are working one on one with police to build their capacity and 
help them advance complaints when they have them. There are 
policewomen's associations being formed, and the Afghan Women's 
Network, a local NGO, is training them in advocacy, bringing 
them for direct exchanges with chiefs of police. There is work 
with male commanders, there is community-based democratic 
policing projects, legal advisors embedded within the 
ministries who go through accelerated training led by NGOs.
    And that money is all currently coming through LOFTA, 
through the Law and Order Trust Fund, and it is unclear whether 
those funding levels will be sustained post-2014, so that is 
another clear avenue.
    Ms. Tsongas. Mr. Sopko, if you have, we have a little time.
    Mr. Sopko. I am usually not into policy. I do process, as I 
have explained to you before. But I think all of the points 
raised by my colleague here at the table are accurate. I think 
we have to look at our own experience, and our own experience 
with how we integrated our military, how we have promoted women 
in the ranks, how we did it in the police forces. And there is 
no silver bullet. I think what my colleague has said has given 
you a list of about 10 or 15 issues, and I think those are 
things you have to look at almost every one of them. But the 
one thing you do have, you have the purse strings.
    You have the money that is going to Afghanistan, and it is 
a lot of money. And I think you have to design a program that 
incentivizes doing what we, and that means you, and the 
taxpayer behind you, wants to see done. So there is no silver 
bullet. But I will say the one thing which will destroy any of 
your plans will be if security goes south on the Afghan 
country, and we don't have effective oversight.
    Mrs. Roby. Mr. Jones.
    Mr. Jones. Thank you, Madam Chairman. Mr. Sopko, I have 
heard you numerous times, and here I am again. I am like any 
human being. I want to see women and children treated fairly, 
whether it be America or Afghanistan. My biggest concern is, 
and I am sure everybody in town will read your report, but you, 
and maybe those at the table, you have set up metrics of what 
you think should show that Afghanistan is moving forward. 
Obviously, they are not making great advances, and there are 
cultural reasons for that going back 2000 years. It doesn't 
mean that we still shouldn't try, but in the debt ceiling 
increase a week ago, $240 billion for 2\1/2\ months, $30 
billion of that goes to Afghanistan.
    When do we get to a point as a Congress, and I am talking 
about both parties, that we set the metrics, but we fall short 
of the metrics. The American people are sick and tired of the 
money that we continue to spend and you and other inspector 
generals testify that you can't account for a large percentage 
of the American money going to Afghanistan. I don't know, I 
hope every one of my colleagues knows that we had seven 
Americans killed during the shutdown. I don't know? That is 
something I am concerned about. But when do you get to a point, 
I have been listening for 12 years. I am on the Armed Services 
Committee as everybody else up here. I have heard, not from you 
today, I have heard the word, ``fragile.'' We are making 
progress, but things are fragile. Situations are fragile. I 
hope that you will continue, those of you at the table, and 
many people like yourself, to continue to try to put pressure 
on Congress to look at what we expect, what is reasonable to 
expect, and what is not reasonable.
    Because I cannot explain back to people in my district how 
we continue to spend $30 billion in Afghanistan as we raise the 
debt ceiling, and we are cutting programs left and right across 
the Third District of North Carolina, even some of the military 
down in my district. I hope that at some point in time, whether 
it be you or someone else, would be honest with the Congress 
and say that just putting money in a black hole and there is no 
end to the black hole. I assume that the metrics are in here 
regarding this issue of the women in Afghanistan. I assume you 
have got recommendations in here, is that correct? I haven't 
had a chance to look at it.
    Mr. Sopko. Congressman, that is our quarterly report that 
you held up. You got an advance copy, the committee did. We do 
discuss some of the metrics. We do not come up with the 
metrics, we use the metrics as provided by the U.S. government 
and try to apply them. Again, you are putting me into that 
scary zone for inspector generals and that is enunciating 
policy. I again will refer to another President: I feel your 
pain. I am a taxpayer, too, but policy issues have to be 
decided by somebody else. We do process. As I told you before, 
I think at one of our other meetings, I am the eternal 
optimist. I think we can accomplish something in Afghanistan, 
but that is my personal opinion. As an auditor, I know my 
auditors behind me are saying, ``Oh, well you have got to 
follow GAGAS [generally accepted government auditing standards] 
on your personal opinion.'' But my personal opinion, I think we 
can do.
    But I do also want to keep in--let us keep in mind that we 
have lost a good many troops, and a lot of our treasury there, 
and we don't want to lose it all, and have wasted all of it now 
that we are coming into the transition. This is probably the 
most important period, now, with the drawdown in the troops, we 
have got to get it right. And that is what we are trying to 
emphasize with the maps, we are trying to emphasize with all 
the reports, and I personally think that hearings like this are 
very important, because you are getting the message out to your 
colleagues, we are making a record of the concerns you have, 
the concerns we have, and the points and concerns that every 
witness has. So I am again, I believe in the process and I 
think the process is working having this type of conversation.
    Mr. Jones. Well in closing, I just would like to say to 
whomever is watching this to hold Congress responsible, to have 
benchmarks, whether it be talking about helping the women of 
Afghanistan or whatever the project might be, and if we are not 
making those benchmarks, then stop spending the money and stop 
sending young men and women to die in Afghanistan. So anyway, 
Madam Chairman, thank you for the time.
    Mrs. Roby. Mr. Andrews.
    Mr. Andrews. Thank you. Madam Chair, I would like to thank 
you and the other members of the committee for being so 
diligent about this issue, traveling to that country on 
multiple occasions, and I think you are doing some of the most 
meaningful work in this Congress by your diligence here, and I 
am proud to be associated with it in a very minor way after the 
work you have done.
    This, what we hear is overwhelming, just overwhelming that 
in a country of 31 million people, apparently there are only 
120,000 women have a high school diploma. Eighty-seven percent 
of Afghan women report being victimized by some sort of 
physical violence or coerced sexual activity. It is appalling. 
But, you know, when all seems lost, there are some metrics, as 
my friend from North Carolina just said, that make you feel a 
little more optimistic. If I read this correctly, that around 
the time of the U.S. invasion or shortly before, the life 
expectancy for Afghan women was 44 years. It is now 62 years. 
That is an unbelievable achievement for which the Afghan women 
themselves deserve the most credit, but this country and its 
taxpayers, its troops, its civilians, public servants deserve 
credit, including each of you.
    I was sobered, however, Dr. Katzman, when I heard your four 
scenarios. It is really sobering when you think about all of 
the investment of life and blood and money for a dozen years, 
that the best scenario of the four is the status quo, which is 
grim. The other three compete in terms of their grimness. I am 
not sure that I would disagree with your assessment, so let me 
ask anyone on the panel, or each of you, this question. Given 
the probability that there will be very rough times for Afghan 
women and girls when troops are withdrawn, given the high 
probability that is the case, in which institution in 
Afghanistan is there the strongest measure of progress for 
women and girls? In which institution have we had the greatest 
positive impact? And I ask that question so that we can have 
some guidance on where to focus our future resources. I am kind 
of looking for an oasis here, a place that is most likely to be 
a success story in the years ahead. Dr. Katzman, would you want 
to answer first?
    Dr. Katzman. Thank you very much, Congressman. You know, in 
my testimony, what I tried to do is put in some specific names 
of some very inspiring and very powerful and successful women 
in Afghanistan, because they don't get a lot of press. We talk 
about statistics, and infant mortality is way down, which adds 
to, what you pointed out, but in government, you know, just in 
governance, we have a very successful woman governor, Habiba 
Sarobi, she is now a vice presidential candidate. We have had, 
in my testimony, one woman who is an Afghan, Malala. We hear 
about Malala Yousafzai, Malalai Joya in Afghanistan. She stood 
up at a big loya jirga, which is a traditional Afghan assembly, 
and was shouting down these commanders who I was mentioning, 
for past abuses during the various civil wars.
    And then, you know, obviously they retaliated and basically 
drove her out of Afghanistan, but there are a lot of powerful 
women, so I would say in the governance structure, in the 
Parliament, at the district, you know, at the mainly in the 
central government, in the ministries, the Ministry of 
Education, there is a Ministry of Women's Affairs. The core of 
the Kabul government is where you are seeing, and in the 
Parliament is where you see a lot of success. And in the ANSF 
too, although I am a little skeptical that that is going to 
continue.
    Mr. Andrews. But how about outside the government, because 
if one of your scenarios comes true and the government 
implodes, or has no functioning control, are there any non-
governmental institutions out provincially that are stronger or 
working?
    Dr. Katzman. There are. I mean, many civil societies, you 
know, we have the Afghan Women's Networks, a lot of civil 
society groups that advocate for women have come up. However, 
if these scenarios come to pass, the dire scenarios, those 
groups are likely going to be somewhat suppressed, 
unfortunately.
    Mr. Andrews. Anybody else have a suggestion?
    Mr. Sopko. I think that what the doctor said, the last 
point is the one I would focus on. If security goes south, all 
the scenarios are extremely negative, and there is no 
organization that will protect the women, so we have to focus 
on making certain that the ANSF and the rule of law, as fragile 
as it is, exists. And I can just add, Congressman, I don't 
know, and we haven't done that audit yet, but hopefully when 
that audit gets done that we reference, we will find out what 
has succeeded the best and what hasn't. As you probably know, I 
sent that letter to all the major agencies asking for your top 
10 successes, and DOD [Department of Defense], State, and AID 
refused to answer it, saying they couldn't rack and stack. Now 
personally I find that troubling and I think you and Congress 
should, because that is a requirement of OMB [Office of 
Management and Budget] that you are able to rack and stack your 
programs on what succeeds.
    Mr. Andrews. I am sure that that sounds like a good project 
for us.
    Mr. Sopko. Yes.
    Mr. Andrews. I yield back. Thank you.
    Mrs. Roby. Dr. Katzman, I want to talk to you about the 
scenarios that you presented and really get you to elaborate 
because obviously, your worst-case scenario is, as Mr. Jones 
pointed out, that is where the fragile part comes in, that it 
is very fragile. And when you talk to women in Afghanistan, 
there is a real recognition that getting back to that place 
would completely gut every--you know, and these are women who 
have put their lives on the line, and do it every single day.
    But I really want you to, if you could, elaborate and about 
the importance of the participation, and you, as well, the 
importance of the participation of women in this election, and 
how important--and we can't emphasize this enough--a peaceful 
transfer of power is going to dictate what the likely outcome 
will be, based on your analysis.
    Dr. Katzman. Thank you. I would say, let's look at the 
reports, and I believe them to be true, that Mr. Karzai favors 
his former foreign minister, Zalmai Rassoul, who I have met on 
a number of occasions. He is very progressive. Was educated in 
the West, in Europe. He is a modernizer.
    One of his key opponents in the election is Abdul Rab Rasul 
Sayyaf. He is a Saudi-backed mujahideen commander, who was very 
successful against the Soviet Union, and then went into 
parliament, where he has fought to basically block the law on 
eliminating violence against women from becoming law.
    It basically is a Karzai decree. Karzai issued the EVAW 
[Elimination of Violence Against Women] by decree. The 
parliament has been talking about passing it into law. Sayyaf 
has blocked it--along with his allies. He is not the only one.
    So, depending on who wins, you can get very different 
results.
    Karzai's brother is running, Quayum. He used to have a 
restaurant in Baltimore. He used to come all the time, when the 
Taliban were in power. And no one ever met with him, but, it 
was a sad time.
    But he is also, like his brother, somewhat progressive.
    So, Dr. Abdullah is running. He ran last time. He is from 
the northern area. Again, very progressive. Very pro-West.
    So, depending on who wins, you can have different outcomes.
    Mrs. Roby. And under the scenario that you talked about, 
with the factions, I guess----
    Dr. Katzman. Faction leaders.
    Mrs. Roby. Yes. Do you think that they--I mean, I know that 
this is all kind of trying to predict the future stuff, but do 
you honestly believe under that scenario that those individuals 
would be able to keep the Taliban at bay? I mean, wouldn't it 
be worst-case scenario plus something worse?
    Does that make sense?
    Dr. Katzman. Yes. Some postulate civil war. Basically, 
these faction leaders are mostly from the north and west. They 
are mostly non-Pashtuns. The Taliban are Pashtun. So the 
hypothesis is these faction leaders are gonna re-arm and fight 
against the Pashtun Taliban. And there will be a civil war.
    I am not sure I am where that is as far as that being that 
dire of a civil war. I do think the Taliban will be kept 
roughly at bay. But the faction leaders will simply re-assert 
themselves, because rule of law is going to deteriorate, 
because the international community is not there watching the 
Afghans as closely anymore.
    A lot of the gains we have seen is because we have been 
riding them. You know, we are on them. We are threatening to 
withhold money, or we are, you know, enacting provisions like 
we have talked about today.
    And they do respond. Once we are not there, as much, it 
going to become--revert back to the way it was before we were 
there.
    Mrs. Roby. Sure.
    Ms. Barsa, do you know, we spent some time at Herat 
University on our last trip. Forty percent of their student 
population are women. Very encouraged by that.
    One of the things, as we even look at the map that Mr. 
Sopko put on the board, you know, there are kind of the four 
corners that are--where there will be a presence. Then you have 
all these rural areas that we are really worried about.
    In your opinion, do you think that women have gained enough 
that they can't be stopped at this point? Like they have had a 
taste and they will continue to seek out. Or do you think that 
they--I mean, we talk about being fragile. How fragile is it? I 
mean, how easily would they be forced back into the corner and 
darkness?
    Ms. Barsa. Well, there is not a single answer to that, 
because it varies quite dramatically from region to region. In 
the west, I think--in the west and north, in particular, I 
think that you will see women maintain a lot of the gains.
    The experience and quality of life for women in those two 
regions is quite different from what you will see in the east 
and the south. Right?
    And so, I think--you also have to take into consideration 
the political negotiations that are ongoing in those regions 
already, right, but also acknowledge the role that women are 
playing in those political negotiations, which is something 
that I think we miss.
    As we look at the dysfunction of the national level peace 
process, I think we are missing some of what is happening at a 
provincial level in terms of reintegration efforts and local 
reconciliation efforts that are being integrated into that.
    So you have provincial peace committees overseeing those 
efforts. There are three women on each of the committees, a 
minimum of three women. And they are negotiating directly with 
commanders. They are mediating intertribal disputes that are 
leading to destabilization at a district level. And, really, 
demonstrating their value and leadership in a tangible and 
concrete way to the extent that it is being recognized by men 
in official authority positions.
    Mrs. Roby. Right.
    Ms. Barsa. In Kandahar, for example, one of the women on 
the provincial peace committee was nominated to be deputy head 
of the council, based on her work in mediating intertribal 
disputes.
    Mrs. Roby. And that is real.
    Ms. Barsa. That is real. Yes.
    Mrs. Roby. Okay. Thanks.
    My time has expired. I want to hear more.
    But, Ms. Duckworth.
    Ms. Duckworth. Thank you, Madam Chair.
    And, Mr. Sopko, it is good to see you again.
    I want to return back to something that you had actually 
said in Oversight and Government Reform looking at the 
diversity of projects that are ongoing and applying it to 
Afghanistan.
    You know, as you said, DOD, USAID, State Department can't 
rack and stack for you. And then, in looking at what we do 
post-pullout of the U.S. troops, is there any way forward in 
terms of coordinating what is happening?
    Or do you have any recommendations on how we would be able 
to have oversight of all of the different departments, you 
know, that are trying to do these projects in Afghanistan, at 
least from our end, with the U.S. money that is going over 
there, so that we know that, for example, USAID is here, trying 
to do this project for women and girls, but then, again, so is 
the State Department Office of Ambassador for Women and Girls, 
and the like?
    Mr. Sopko. Well, you actually highlighted one of the 
problems that one of our prior audits had dealing with women's 
issues. And we issued the one, I believe it was in 2010 or 
2011, looking at coordination, and we noticed there was a lack 
of coordination.
    I supposed if there is somebody who can try to coordinate 
it, to some extent, our looking at all of these programs tries 
to, using the bully pulpit to get people to coordinate.
    But that is one of the most serious problems we have. 
People just don't talk to each other.
    And, if you recall when I spoke at the Oversight and 
Government Reform Committee hearing, I talked about those seven 
questions. And one of them was coordinate with the Afghans, but 
it was also coordinate internally.
    And we are not coordinating with our allies. I just came 
back from NATO and was a bit surprised to find out that the 
NATO allies didn't know about some of the things that DOD and 
the EU was even doing, so--and AID.
    So that is a major problem we have, on coordination.
    Ms. Duckworth. Ms. Barsa, do you have any information on 
the type of work that is being done by some of the U.S. allies 
for women and girls in Afghanistan right now?
    Ms. Barsa. I have information that is focused on the peace 
and security intervention. Not more broadly.
    So there is quite a bit of work that is being done. Most of 
the work that is being done to fund police mentorship work and 
the formation of policewomen's associations and the lobbying 
that those associations are doing to police commanders is being 
facilitated by Afghan women's NGOs but with funding from 
European nations, from the Dutch in particular. They are really 
coming out ahead on that.
    In the peace and security realm, you know, that varies. The 
Norwegians are really doing quite a bit of work to train women 
in skills related to community mobilization and the value of 
women's inclusion in the peace process and are funding quite a 
bit of work to forge bridges and links between women in 
official authority positions and women in civil society, so 
women on the provincial peace committees and provincial 
counsels together with women's, what you might call NGOs or 
voluntary associations, women who are doing really productive 
work in service to their communities at a provincial level, 
which I think is doing quite a bit in service of expanding 
women's political power and a space for them in the political 
discussion and debate.
    Ms. Duckworth. Can you--just off the top of my head, I am 
thinking of other nations, I mean, yes, the U.S. is going to 
take a leading role, and we certainly hold a big chunk of the 
purse strings.
    But looking at some of the other nations around the world 
that also have a history or a tradition of strong democracy, of 
women participating in the democratic process, especially those 
like--places like Malaysia, Indonesia, that are Muslim nations, 
is there any potential there for us to reach out to those 
nations for help in Afghanistan?
    Ms. Barsa. Huge potential. And particularly as it relates 
to security force development. So this is something we have 
looked at a lot. It is funding professional development 
opportunities and exchanges between not just Afghan women in 
the forces, but also their male commanders, with Islamic 
nations that have a strong presence of women in their forces, 
and to look at how that has functioned, the value that has been 
added, and the systems that have been put in place to support 
that. So 100 percent.
    Ms. Duckworth. Great to hear.
    Dr. Katzman, can you add to something like that?
    Dr. Katzman. Well, I just wanted to mention Turkey. 
Because, you know, Turkey does basically command Kabul city in 
partnership with the Afghans. And, I am not a Turkey expert, 
but, you know, it has a somewhat Islamic government right now, 
but still a tradition of progressivity and secularism, 
particularly in its military.
    And it is a big force contributor in Afghanistan.
    I think Malaysia has a few, not many. I don't think 
Indonesia even has any forces in Afghanistan.
    But I think the Turks, as a Muslim nation and a lot of the 
Afghans, particularly in the north, speak a Turkic dialect, 
Uzbek is a Turkic dialect. That might be something to look at.
    Ms. Duckworth. Thank you, Dr. Katzman.
    I yield back, Madam Chair.
    Mrs. Roby. We are gonna run, go vote, really quickly.
    So if you will be patient, there are only two votes, and we 
are 15 minutes into the first one, so we got to go, but we will 
come right back, if you guys don't mind waiting.
    And for the members that are here, if you can come back, I 
would appreciate it as well. Thanks.
    [Recess.]
    Mrs. Roby. Okay, thank you for your patience and letting us 
exercise our constitutional duty. I want to pick up on behalf 
of my colleague, Mrs. Davis. She, I don't think, can return, 
but I think something that in repeated conversations about our 
concerns about Afghan women one of the things that she has 
concentrated a lot of her efforts on is the election, the 
upcoming election.
    And how can we make sure that they--the Afghan government--
does not use the lack of women in the ANP as an excuse for 
women to not have the opportunity to exercise their right to 
vote.
    One of the things that has come up a lot of times in our 
conversations, you know, both traveling back and forth to 
Afghanistan, but also just even down on the floor is between 
Mrs. Davis and Ms. Tsongas and myself and others, is what 
creative ideas can we come up with and help facilitate to get 
women to the polls but ensure that their vote counts.
    And so I am sure each of you have some ideas, maybe outside 
of your wheelhouse, but I am sure you each have an opinion of 
sorts. And so, again, on behalf of Mrs. Davis--and I know this 
is important to all of us, but this is of particular importance 
to her, and if she were here I am quite confident this is what 
she would probably ask you about.
    Mr. Sopko. If I can start, chairman. Actually we did an 
audit on the barriers to greater participation in women in the 
last Afghan election, and we found serious problems, similar to 
the problems I think you are seeing right now, and similar 
concerns, and we issued a number of recommendations, and that 
was an audit we did back in October of 2009.
    And we recommended then to the ambassador, in conjunction 
with the United Nations, to urge the Independent Election 
Commission [IEC] to address those challenges of female 
candidates and voters, by taking a number of corrective 
actions, including proactively recruiting and training female 
IEC staff, and integrating women in the IEC planning process, 
communicating to all IEC staff the importance of following 
electoral law, increasing supervision over staff and publicly 
reporting violators, ensuring registration centers and polling 
places are secure, accessible locations, and raising awareness 
of the right of women to participate fully in electoral 
process.
    And I think those recommendations are still valid today. 
The embassy agreed fully with those. So we hope they are being 
implemented or trying to implement them now.
    Mrs. Roby. And I am interested in hearing the other two, 
remarks, but one of the other things that we had talked about, 
you know, similar to what we do here in the United States as it 
relates to get-out-the-vote efforts.
    I know that sounds very simplistic, but it is what makes 
the differences in elections is you have to get people to the 
polls.
    And--oh, I am asking your question. I didn't think you were 
coming back.
    [Laughter.]
    Mrs. Roby. But anyway, Susan and others, we have talked 
about, you know, using the women or helping to motivate the 
women that are--have had the privilege of education and are in 
a position to be leaders within their communities, particularly 
in the rural areas, to help guide women through this process.
    So, if the other two want to make comments.
    Ms. Barsa. Sure. I think, you know, there are a couple of 
pieces to look at. One is security. Another is monitoring and 
engagement. And the third is civic education.
    So on the security piece, the plan in place right now is to 
contract temporary female security personnel for the election 
on the order of about 13,000. And the hope is that they can 
look to existing female teachers, train them up in 2 to 3 days, 
and secure contracts just to staff maybe a last-ditch voter 
registration effort and then certainly the polling stations on 
the day of the election.
    All of that is a bit behind schedule because of resourcing 
issues. And so we will see how effective that is, but that is a 
key component.
    Then there is the monitoring piece. So some of what we have 
been doing is training women in how to monitor political 
transition processes and helping them develop their own tools 
for what they want to prioritize as key indicators for a 
transparent, legitimate process, and one that has adequate 
attention to women and gender, right?
    And so they are collecting that information and feeding it 
back up. And then we do additional training on how you 
communicate findings to decisionmakers and people with official 
authority over those issues.
    The last piece, like you mentioned, the get out the vote or 
civic education piece. One of the flaws with the ways we have 
approached civic education in Afghanistan thus far is that we 
treat it much more like a training on how to vote. So the 
actual physical logistics of what you do when you arrive at the 
voting station and helping women be aware that nobody is 
watching them. No one will know who they voted for and there 
will be no repercussions for who they vote for because they 
receive quite a number of intimidating threats in advance of 
the election.
    But we don't do civic education that is oriented towards 
understanding how you choose a candidate of your preference, 
right; how you understand each individual's political platform 
and whether or not it services your needs, and how you can 
engage candidates in discussions about what needs need to be 
met and their approach to addressing those.
    So I think that will be a big piece in looking towards the 
success not only of the presidential election, but certainly 
the parliamentary elections to follow, and whether or not we 
can oversee, fund and support a robust civic education effort.
    Mrs. Roby. I want to ask Dr. Katzman, you stated in your 
response to one of my other questions, is that, you know, the 
outcome of the election, of course, you have candidates that 
represent very differing interests when it comes to the rights 
of women, is what I understood you to say. And that being the 
case, that civic component as it relates to helping these women 
understand how to choose the candidate and what that person 
represents to them is going to be so crucial.
    My time is expired, and Mrs. Davis, it is your turn. And I 
will just tell you that I apologize. I didn't know you were 
coming back, but I am sure you can expound on those in your 5 
minutes.
    Mrs. Davis. That is fine, Madam Chair. I wasn't sure--I 
didn't think I could, but I wanted to come back because I was a 
little concerned.
    I think, Ms. Barsa, I guess everybody really mentioned that 
the needs to have women at the polls to assist with other women 
as their confidence level and comfort level that they are 
actually going to be able to vote is really critical.
    And we certainly heard that on our last trip to 
Afghanistan. And it concerned me that maybe we had kind of 
written that off in some way, that we, you know, realized that 
we cannot do it really the way we wanted to, and therefore, you 
know, maybe it wasn't going to come out so well.
    So I just wondered whether that was a--was I hearing that 
correctly? And you mentioned just now that you will have some 
contract, temporary assistance, whether teachers or whatever. I 
didn't know whether there was an opportunity to also bring 
women in from other Muslim countries as an example or even the 
U.S., I mean, making certain that the women who were still in-
country were available and if that was going to be helpful.
    Obviously, we are dealing with both the city and the rural 
areas, that we know it is important, and yet it sounded like 
maybe we weren't going to move forward. I also had asked 
recently at a hearing, and basically was told the kind of 
``Look, we have got it--we have it under control.'' And it 
doesn't sound like we do.
    Dr. Katzman. One thing I wanted to point out. You know, one 
woman did file to run for president, Fatima Ghaznowi. Okay? And 
October 6th was the registration deadline. She filed. October 
23rd, the IEC had its first cut. She was nixed. So now there is 
no female running for president.
    In the past presidential elections in 2004 and 2009, there 
was at least one woman candidate. Now, they didn't do 
particularly well, but they ran. Massouda Jalal, very well 
known, first minister of women's affairs. Also, the election 
law for this election cut--there is a quota in the elections 
that 25 percent of each provincial council, each of the 34 
provinces has a council, like a little state legislature-type 
thing; 25 percent must be women. Okay, the election law has cut 
that now to 20 percent.
    Also, the registration. I mean, we have sort of, we are in 
a way behind the curve because registration has already 
started. What we saw in the last election in 2009 is many women 
did not register. Or basically what happened, men registered 
for them. Men would just take their--a lot of it is cultural. I 
mean, it is not all--it is not a policy problem. This is the 
thinking. So----
    Mrs. Davis. We even run into that occasionally here.
    [Laughter.]
    Mrs. Davis. So, yes, I understand. I think part of it is 
trying to understand best where this is in terms of our 
priorities and moving forward. And if, in fact, it is important 
to the future in a way that may be out of proportion to our 
ability to plan better at this time, do we have time to put in 
additional effort with NGOs and others. And I am just trying to 
get a feel for is this a place for us--you know, if there is 
one place to focus right now before our troops pull out, with 
the exception hopefully of a 10,000 force, is this it? Or maybe 
it is not.
    Mr. Sopko. Can I just add? I mean, I think we are faced 
with three major transitions. We have referred to the security 
transition, which is obviously important. The political 
transition is a key. And if the election is bad, we could lose 
it on that.
    And then, of course, the third transition is we are moving 
toward this direct assistance. So I think you are absolutely 
correct. Now is the time to make the difference. Now is the 
time to focus on this and to get the Afghan government to 
either hire the police, hire the poll watchers, whether they 
are temporary or otherwise, but you have got to do it now. It 
may be too late if we wait.
    Mrs. Davis. Okay. Thank you. And I really appreciate, Madam 
Chair, your having this hearing. And I think that you have all 
mentioned in one way or another, I think one of the reasons 
that we kept going back was we saw the strength of these 
incredible women in the face of unbelievable adversity. And you 
knew that given just a little bit of support, they would be 
able to make changes in their communities that nobody else 
could do. I mean, it really--they are the ones who can do it.
    Thank you so much.
    Mrs. Roby. Thank you, Mrs. Davis.
    Ms. Tsongas.
    Ms. Tsongas. I want to thank you all for what has been a 
really very interesting and so important discussion.
    One of the things that I keep coming back to in my mind is, 
as I, like everyone of us here have made these many trips to 
Afghanistan. In our last visit, one woman said to us, we were 
in Kabul at a meeting, and she said: ``We don't expect more. We 
just want the space to fight for what we have.''
    And so we understand that there is a limit to what we can 
do, and yet we want to be sure that, you know, that we are 
doing as much as we can to allow Afghan women to continue the 
fight. We know it is a long-term effort. It has certainly been 
one--the United States' effort has been long term. But you have 
got to have the space to do it.
    So whether it is a security space, whether it is a 
political space, or whether it is the economic space, there are 
a lot of ways in which we have to think about it.
    And as we have been listening today, just a couple of 
things, Mr. Sopko, as you do your audit, it is an after-the-
fact thing, as opposed to prospective, but I think it is so 
important that you look at what has succeeded and why. You 
know, what about it made it successful?
    If you look at the amount of money that has actually been, 
you know, clearly spent on women issues, related to women and 
children, it is so small in relationship to the total amount of 
dollars that have gone into Afghanistan. So, and yet we see the 
successes. They may not cover huge numbers, but where they do 
have an impact, it is very apparent how real it is. So we have 
gotten a lot of money, gotten a lot of bang for our buck, at 
least in those specific dollars.
    Now, a lot of other dollars have gone in in a more generic 
way and I am sure they have also helped promote women and 
girls. But I think to be very thoughtful about it, we have 
heard that there are differences in what has happened at the 
national level as opposed to the provincial level. I hope you 
will look at that.
    It would be interesting to know in those parts of the 
country that are more progressive, in which women's rights 
continue to be recognized and promoted and there are efforts to 
secure them. You know, are those the areas where the ANSF has 
had better ability to recruit women? I mean, is there a linkage 
there? I think it would be interesting to look at those 
prospectively.
    I also think it would be interesting to look at, a lot of 
money has come through the provincial reconstruction teams. Has 
that been an effective mechanism? Has that really worked? Or is 
the money that comes through the NGO community a better way to 
spend our dollars?
    So lots of things to look at prospectively, I mean, after 
the fact. Because as we go forward, it will help guide how we 
continue to make investments so that we can be a partner and 
continue to allow women, promote the rights of women to 
continue to fight for what they think is so important for them 
as individuals and for their country.
    Mr. Sopko. Congressman, if I can just respond briefly. As I 
mentioned to you I think yesterday, we did not get a 
satisfactory response from DOD, AID and State on what worked 
and what didn't work and why. So, I met with a number of 
smaller NGOs who are working in the provinces, working in the 
community. And actually they complained. They said, ``You are 
doing a great job, but you are tarring us with the same brush 
that these large corporations who maybe screwing up out there 
have.''
    And I heard them. I said, ``Okay, what do you think works, 
the smaller charities that are working out there, the smaller 
NGOs? You tell me.'' So they said, ``That sounds great.'' So we 
are going to be sending a letter to the smaller NGOs operating 
just to answer that type of question that you have proposed.
    Likewise, we are going to be doing a capping report on the 
PRTs [provincial reconstruction teams], what worked, what 
didn't work, and why. So, those are two projects that we are 
going to be doing in addition to our looking at how we are 
handling the funds for women and girls in Afghanistan.
    Ms. Tsongas. And Ms. Barsa, if you want to comment at all?
    Ms. Barsa. Sure. I mean, I couldn't agree with you more on 
the bang-for-your-buck question particularly. And when we are 
thinking about how to make our aid more effective, I hope that 
we think about women's integration as a key to that, 
particularly when we are looking at things like building 
legitimacy and professionalism of a police force, right, when 6 
out of 10 Afghans believe that female police are likely to 
resolve a crime more fairly than a man would, right?
    So, I think, you know----
    Ms. Tsongas. It sounds like the United States use of women 
in Congress.
    [Laughter.]
    Ms. Barsa. There are now about 400 Afghan women's NGOs 
registered in-country. And the work that they are doing is 
beyond. And the conversations that they are having with police 
commanders and ANA commanders at a provincial level are really 
what is driving change.
    They are having conversations about, you know, what the 
true nature of security threats are at a provincial level, and 
whether or not an all-male force can address those threats. 
Inevitably, the answer is no, from the male commanders 
themselves.
    And really, that is the way that you can force this change, 
both from the top down and the bottom up. So I think, you know, 
I won't comment on the PRT issue. I have maybe some of my own 
personal perspectives on that, but I certainly think that the 
assisting NGO community is a solid pathway forward on this.
    Ms. Tsongas. Mr. Katzman, quickly.
    Dr. Katzman. Well, I mean, I think we have been talking a 
lot about incentives. What does Karzai care about and what is 
his successor going to care about? Three things: arms, money 
and Pakistan. To force change on the Afghans, you need to go 
with those core interests if you want to get them to make 
reforms and keep the reforms that have been made on women 
going, on corruption. It could be anything--education, 
corruption, women. You need to work those core interests that 
they have.
    They want protection against Pakistan. They want F-16 
combat aircraft, which they are probably not going to get 
because they can't fly them. And they want a guarantee of U.S. 
money for the Afghan National Security Forces and the economy. 
So those are your levers that you are basically working with.
    The work that the NGOs are doing are great, and the problem 
is prospectively, when we are not there to basically ride them 
and oversee what the Afghans are doing. A lot of that is going 
to deteriorate. So you have to find ways to make it in their 
interest to continue that work after there are not 85,000 U.S. 
troops in Afghanistan, when there are only 8,000 U.S. troops in 
Afghanistan. That is the key to consider, I think.
    Ms. Tsongas. Thank you.
    Mrs. Roby. Okay. Just a few comments, you know, as we close 
here. You know, I just want to say first of all the women that 
were here today, all of us, have spent time, and 36 hours in 
theater is never enough time, in the--you know, only visiting 
that country once a year. But I can tell you all of us as wives 
and mothers who have little experience, if any, overcoming 
adversity on this level, as we watch these women who struggle, 
this has, you know, become a deeply personal issue for all of 
us here, particularly when you are meeting their children and 
getting to spend time with them in their country.
    And I just want to make one other comment about, you know, 
we say women and little girls, but this is just as much about 
the little boys, too. And, you know, in a country where we have 
seen life expectancy increase in a country that has been at war 
for 30-plus years, you have a generation or more that have 
never known anything but what they see every day. And, you 
know, I think it is very important to educate--not just to 
worry about the education of the little girls, but to educate 
the little boys, too, and about respecting the little girls in 
a different way.
    And so, again, I just wanted to express, you know, my--Niki 
and I were talking on the way back. I mean, you just to be 
there and to look these women in the eye and, you know, hear 
their personal stories of their struggle, it makes it very, 
very real to all of us who have participated in this hearing 
today.
    And I guess the last question I would just ask each of you 
to briefly comment on, because it is something that we struggle 
with as women in Congress, what role do you see for us as women 
in the United States Congress to play as it relates to the 
furtherance of women's rights in Afghanistan? And I will let 
you each comment on that.
    Mr. Sopko. I think what you are doing today is the most 
significant thing you can do. And it is holding people 
accountable, asking the questions, and doing the oversight.
    Ms. Barsa. I think continuing to have the conversations 
that identify this issue as core to our civilian and military 
mission in theater is really key; that it is an effort that is 
in service of mission objectives really for democracy promotion 
and countering terrorism and the provision of security for all 
Afghan men and women. And that women's participation is the key 
to ensuring women's protection in the long run.
    Dr. Katzman. Of course, CRS [Congressional Research 
Services] isn't in a position to suggest any legislation, 
obviously, but if you look at what was done during the Taliban 
regime, actually the legislation that was passed criticizing 
the Taliban was actually--on their treatment of women--way 
before anybody mentioned bin Laden or terrorism. The criticism 
of the Taliban, 1996 when they took power, was on the basis of 
their treatment of women.
    There was a Senate resolution by Senator Boxer that was 
passed. There was other legislation, a lot of legislation on 
that. And that was way before September 11 or the Africa 
embassy bombings or anything. And it basically said the Clinton 
administration should not recognize the Taliban as the 
government of Afghanistan unless and until it improves its 
treatment of women.
    So, there have been legislative models that have been 
passed that you could look at.
    Mrs. Roby. I appreciate that. And, you know, one of the 
most meaningful conversations that we have had with Afghan 
women in Afghanistan is from their position. You know, we 
cannot allow for the gains that they have made to be bartered 
away for other things. And so, you know, again, that is why we 
wanted to have this hearing.
    That is why we are going to continue to keep a close eye on 
what we are seeing happen politically because we very much 
think that this is, you know, we have our leverage, but, you 
know, there are other political interests at stake as well. And 
we have got to make sure that that is not what they use.
    So, on behalf of Ranking Member Tsongas and myself, thank 
you all for being here. This has been a very, very meaningful 
hearing today. And so thank you for your time, and we look 
forward to continuing discussions with you in the future.
    [Whereupon, at 2:44 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                            October 29, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 29, 2013

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 29, 2013

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 29, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. How do you intend to evaluate whether past, current, 
and future funds that were intended to support recruitment and 
retention of women in the Afghan National Security Forces were actually 
used for that purpose? Can you evaluate the impact of women-specific 
funding in cases where the funding was used for its intended purpose?
    Mr. Sopko. In August 2013, we initiated an audit of U.S. efforts to 
support Afghan women, with a focus on programs, projects, and 
initiatives the Department of Defense (DOD), Department of State, and 
USAID implemented in fiscal years 2011 through 2013. The objectives of 
the audit are to (1) identify U.S. government programs or initiatives 
to improve the rights and treatment of women in Afghanistan since 
fiscal year 2011; (2) assess the extent to which these programs and 
initiatives have been coordinated across different U.S. government 
agencies; and (3) identify challenges in addressing women's issues in 
Afghanistan and evaluate U.S. efforts to address these challenges. As 
part of this audit, we are examining U.S. efforts supporting 
recruitment and retention of women in the Afghan National Security 
Forces (ANSF). Since 2009, we have tracked the amount of funding the 
United States has appropriated and disbursed to support the ANSF 
through the Afghanistan Security Forces Fund (ASFF)--$52.78 billion 
appropriated and $43.54 billion disbursed as of August 31, 2013--and 
have been able to identify approximate funding levels for such areas as 
construction, operation and maintenance, fuel, and vehicle spare parts. 
However, we have found it difficult to determine what portion of the 
ASFF has been spent directly on recruitment and retention of women into 
the ANSF and whether funding is used for its intended purpose. As we 
note in our January 2014 Quarterly Report, while DOD has reported 
progress in recruiting women into the ANSF, women make up only 1 
percent of the Afghan National Police and less than 1 percent of the 
Afghan National Army (SIGAR, Quarterly Report to Congress, January 30, 
2014, pp. 97, 101.). Furthermore, it is methodologically difficult to 
link that increase directly to U.S. efforts and funding. Although past 
legislation has emphasized the recruitment and retention of women in 
the ANSF, and required the Secretaries of Defense and State to report 
on these efforts, Congress did not authorize or appropriate funding 
specifically for the recruitment and retention of women in the ANSF 
until fiscal year 2014. Specifically, the National Defense 
Authorization Act for Fiscal Year 2014 authorized no less than $25 
million in funding from the Afghanistan Security Forces Fund for the 
``recruitment, integration, retention, training and treatment'' of 
women in the ANSF. In addition, the Consolidated Appropriations Act for 
Fiscal Year 2014 stated that not less than $25 million in appropriated 
funding for the Afghanistan Security Forces Fund shall be used for the 
``recruitment and retention'' of women in the ANSF. To the extent 
possible, we will examine the Department of Defense's plans for using 
these funds during the course of our ongoing audit. In its regular 
Report on Progress Toward Security and Stability in Afghanistan, DOD 
provides details on its efforts to support women in the ANSF, including 
recruitment numbers, but the department does not include specific data 
on funding for these efforts. However, in response to a request for 
information submitted during our audit, DOD provided the following 
examples of funding specifically for women in the ANSF:
    <bullet>  The Combined Security Transition Command-Afghanistan 
(CSTC-A) provided $100,000 to the Ministry of Defense (MOD) to be used 
for Women's Recruiting and Advertising.
    <bullet>  As part of the overall National Military Academy of 
Afghanistan (NMAA) facilities management budget, CSTC-A provided 
$13,000 to complete the female cadet training field. As of October 1, 
2013, the project had not been completed.
    <bullet>  CSTC-A provided $4,400 of gym equipment for the NMAA 
female cadets, which was delivered on September 29, 2013. We are 
currently working with DOD to verify this information. We will continue 
to identify other efforts to support the recruitment and retention of 
women in the ANSF and associated funding, if possible, as part of our 
ongoing audit. We anticipate issuing a final report in summer 2014.
    Ms. Tsongas. In December 2011, President Obama issued the first-
ever U.S. National Action Plan on Women, Peace, and Security, (U.S. 
NAP) making a firm commitment to empowering women as equal partners in 
preventing conflict and building sustainable peace around the world in 
countries threatened and affected by war, violence and insecurity. The 
resulting executive order directed the U.S. Department of State, 
Department of Defense, USAID, and other agencies to develop and 
implement strategies to ensure women's participation in preventing 
conflict and keeping peace. In her October 18th speech to the UN 
Security Council, U.S. Ambassador to the United Nations, Samantha 
Powers affirmed the principle that ``women's participation in conflict 
prevention, mitigation, and recovery is vital to the maintenance of 
international security and peace. Not a sideshow, but vital;'' and 
further stated that we must take ``concrete steps so that women share 
fully in efforts to avoid and contain conflict, just as they inevitably 
share in the suffering when such efforts are poorly designed or when 
they fail.''
    Can you please describe to the Committee to what extent SIGAR 
applies a gender perspective, such as the collection of sex-
disaggregated data or analysis of the unique impact of U.S. foreign 
policies and practices on Afghan women, in its oversight activities? Is 
there a way for you to measure whether Afghan women are fully and 
effectively participating in the peace building and political 
transition processes in Afghanistan?
    Mr. Sopko. As part of our ongoing audit of U.S. efforts in support 
of Afghan women, we are reviewing the Department of Defense's (DOD), 
Department of State's, and USAID's implementation plans developed in 
accordance with the United States National Action Plan on Women, Peace, 
and Security (NAP), actions taken to implement those plans in 
Afghanistan, and the extent to which these agencies assess their 
progress in implementing the NAP. (The goal of the NAP is to empower 
half the world's population as equal partners in preventing conflict 
and building peace in countries threatened and affected by war, 
violence, and insecurity. The plan describes the course the United 
States Government will take to accelerate, institutionalize, and better 
coordinate our efforts to advance women's inclusion in peace 
negotiations, peace-building activities, and conflict prevention; to 
protect women from sexual and gender-based violence; and to ensure 
equal access to relief and recovery assistance, in areas of conflict 
and insecurity.). We are also assessing the extent to which DOD, State, 
and USAID sex-disaggregate their data and/or analyses of the impacts 
the identified programs, projects, and initiatives have had on Afghan 
women. Our assessment will include a high-level review of each agency's 
monitoring and evaluation efforts. Because this is a sector-wide audit, 
we do not intend to delve too deeply into each program, project, or 
initiative, though we might highlight specific efforts through case 
studies.
    In addition to our audit of U.S. efforts in support of Afghan 
women, we are also auditing the U.S. government's efforts to assist and 
improve the Afghan education sector. This may identify programs focused 
on education of women and girls. As part of our quarterly reports, we 
collect data and reports from DOD, State, and USAID on programs and 
issues related to Afghan women, such as the Afghan government's 
progress in recruiting women into the Afghan National Army and Afghan 
National Police and implementing of the Elimination of Violence Against 
Women law, as well as women's participation in the upcoming elections.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
